Audit Report




OIG-08-018
Management Letter for the Fiscal Year 2007 Audit of the
United States Mint’s Financial Statements


December 10, 2007




Office of
Inspector General
Department of the Treasury
                                      DEPARTMENT OF THE TREASURY
                                            W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                            December 10, 2007


            MEMORANDUM FOR EDMUND C. MOY, DIRECTOR
                           UNITED STATES MINT

            FROM:                 Michael Fitzgerald /s/
                                  Director, Financial Audits

            SUBJECT:              Management Letter for the Fiscal Year 2007 Audit of the
                                  United States Mint’s Financial Statements


            I am pleased to transmit the attached management letter in connection with the
            audit of the United States Mint’s (Mint) Fiscal Year 2007 financial statements.
            Under a contract monitored by the Office of Inspector General, KPMG LLP, an
            independent certified public accounting firm, performed an audit of the financial
            statements of the Mint as of September 30, 2007, and for the year then ended.
            The contract required that the audit be performed in accordance with generally
            accepted government auditing standards; applicable provisions of Office of
            Management and Budget Bulletin No. 07-04, Audit Requirements for Federal
            Financial Statements; and the GAO/PCIE Financial Audit Manual.

            As part of its audit, KPMG LLP issued and is responsible for the accompanying
            management letter that discusses other matters involving internal control over
            financial reporting and its operation that were identified during the audit but were
            not required to be included in the audit reports.

            In connection with the contract, we reviewed KPMG LLP’s letter and related
            documentation and inquired of its representatives. Our review disclosed no
            instances where KPMG LLP did not comply, in all material respects, with generally
            accepted government auditing standards.

            Should you have any questions, please contact me at (202) 927-5789 or a member
            of your staff may contact Donna Joseph, Audit Manager, Financial Audits,
            at (202) 927-5784.

            Attachment
THE UNITED STATES MINT


     Management Letter 


      Fiscal Year 2007

                                     THE UNITED STATES MINT
                                    Fiscal Year 2007 Management Letter 

                                             Table of Contents 



Transmittal Letter                                                                                          2


Appendix A – Fiscal Year 2007 Management Letter Comments                                                    4


Inventory Management 


     A-1    Controls over Reconciliation Reviews Should be Strengthened                                     4

     A-2    Controls over Quarterly Physical Inventory Procedures at Philadelphia Should be Strengthened    4

     A-3    Controls over Quarterly Physical Inventory Procedures at Denver Should be Strengthened          6

     A-4    Physical Inventory Procedures at West Point Should be Strengthened                              7


Asset Management

     B-1    Controls Over Asset Retirements Should be Strengthened                                          8

     B-2    Controls Over Property, Plant and Equipment Should be Strengthened                              8

     B-3    Controls Over Property, Plant and Equipment Inventory Should be Strengthened                    9


Revenue Generation and Collection

     C-1    Controls Over the Preparation of Shipping Documents Should be Strengthened                      9

     C-2    Controls Over the Sign-off of Shipping Documents Should be Strengthened                        10 


Human Resource Management

     D-1    Controls Should be Developed for Monitoring Payroll Processed by Service Providers             10 

     D-2    Controls over Reconciliation Reviews Should be Strengthened                                    10 


Financial Reporting

     E-1    Standard Operating Procedures Should be Implemented for Heritage Assets                        11 


Appendix B – United States Mint’s Response                                                                 12 


Appendix C – Status of Prior Year Management Letter Comments                                               13




                                                     1

                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036




December 4, 2007

Inspector General
United States Department of the Treasury
740 15th Street, NW, Suite 600
Washington, DC 20220

Director
The United States Mint
801 9th Street, NW
Washington, DC 20001

Ladies and Gentlemen:

We have audited the financial statements of the United States Mint (Mint) for the years ended September 30,
2007 and 2006, and have issued our report thereon dated December 4, 2007. In planning and performing our
audits of the Mint’s financial statements, we considered the Mint’s internal control over financial reporting, in
order to determine our auditing procedures for the purpose of expressing our opinion on the financial statements,
but not for expressing an opinion on the effectiveness of the Mint’s internal control. Accordingly, we do not
express an opinion on the effectiveness of the Mint’s internal control.

During our fiscal year 2007 audit of the Mint’s financial statements, we noted one matter involving internal
control over financial reporting and its operation that we considered to be a significant deficiency under
standards established by the American Institute of Certified Public Accountants. In our Independent Auditors’
Report on Internal Control, dated December 4, 2007, we reported that we considered the finding related to the
Mint’s financial accounting and reporting controls to be a significant deficiency, additionally we consider this
significant deficiency to be a material weakness.

Our audit procedures were designed primarily to enable us to form an opinion on the Mint’s financial statements,
and therefore, may not bring to light all weaknesses in policies or procedures that exist. However, we also take
this opportunity to share our knowledge of the Mint, gained during our work, to make comments and suggestions
that we hope can be useful to you.

Although not considered to be significant deficiencies, we noted certain matters involving internal control and
other operational matters, which are presented in Appendix A, for your consideration. These comments and
recommendations, all of which have been discussed with the appropriate members of management, are intended
to improve the Mint’s internal control or result in other operating efficiencies. We have not considered the Mint’s
internal control since the date of our report. The Mint’s response to our comments and recommendations are
presented in Appendix B. Appendix C presents the status of prior year management letter comments.

We appreciate the courteous and professional assistance that the Mint’s personnel extended to us to complete our
audit timely. We would be pleased to discuss these comments and recommendations with you at any time.




                                                                         2

                                       KPMG LLP. KPMG LLP, a U.S. limited liability partnership, is
                                       a member of KPMG International, a Swiss cooperative.
This communication is intended solely for the information and use of the Mint’s management, the United States
Department of the Treasury’s Office of Inspector General, the U.S. Government Accountability Office, Office of
Management and Budget, and the U.S. Congress, and is not intended to be and should not be used by anyone
other than these specified parties.

Very truly yours,




                                                      3

                                                                                                     Appendix A

                                        THE UNITED STATES MINT
                                Fiscal Year 2007 Management Letter Comments


Inventory Management
A-1 Controls over Reconciliation Reviews Should be Strengthened

During our reconciliation test work, we could not verify Mint management review and approval of
reconciliations performed from the sub ledger to the general ledger.

We recommended that the Mint enforce the practice of signing-off the reconciliations on a timely basis in order
to adequately document that a formal review and approval of the reconciliations is being made.

The Mint has corrected the finding noted above as of fiscal year-end.

A-2 Controls over Quarterly Physical Inventory Procedures at Philadelphia Should be Strengthened

During our first inventory observation we noted several findings. During our second inventory observation
several of the findings noted were cleared. The following are the findings from the first inventory observation
that were not cleared as of year-end:

Numismatic Physical Inventory

    1.	 Historically, the Numismatic Section performed a cycle count of their inventory. The Mint conversion
        to ARC delayed implementing the cycle counts this fiscal year. According to the Mint an Annual
        Physical Inventory (API) of all numismatic items would replace the cycle count control for the current
        fiscal year. However, the numismatic count team was informed that only inventory located on-sight
        needed to be supported.

Circulating Inventory

    1.	 The Mint did not perform proper Quarterly Physical Inventories (QPI)’s prior to the QPI 3rd Quarter that
        KPMG attended. The Mint only inventoried raw material and finished goods; however, they should
        have included all inventory items, except work-in-process (WIP). Please note that WIP is only
        performed once a year in the third or fourth quarter per the Inventory Standard Operating Procedures
        (SOP).

    2.	 Circulating coins held at third party locations are in the general ledger and supporting documentation for
        this inventory was provided; however, there was no reconciliation of the supporting documentation to
        the general ledger.

We recommend that Mint management implement the following recommendations to correct the conditions
noted above:

Numismatic Physical Inventory

    1.	 Ensure all sections/count teams receive instructions on the procedures being performed prior to the
        physical inventory.




                                                        4

                                                                                                     Appendix A

                                        THE UNITED STATES MINT
                                Fiscal Year 2007 Management Letter Comments


Circulating Inventory

    1.	 Develop clear inventory instructions and conduct training session on the proper procedures that should
        be performed during a QPI.

    2.	 Prepare before the QPI by acquiring the proper documentation for coins held at third party locations but
        are still in the Mint’s GL, and perform a reconciliation of the documentation to the GL.

During our second inventory observation, we noted the following:

Circulating Inventory

    1.	 Six count sheets prepared by the Mint were incorrect: four coil count sheets, one condemned count
        sheet, and one WIP count sheet.

    2.	 Sufficient documentation was not provided to support the mutilated count sheets conversion into the
        ending balances noted in the final Consolidated Inventory by Account (CIBA) report.

    3.	 There were three separate occasions when the Mint’s final count did not agree to the ending balance in
        the final CIBA report. There was no explanation provided for these differences.

    4.	 The review and approval of all count sheets was not performed in a timely fashion. Specifically on
        condemned count sheets, we noted that not all of the count sheets were signed or dated.

    5.	 The QPI ended on September 21, 2007, reconciliations for the QPI were not received until October 4,
        2007. Reconciliations should be provided within five business days of the end of the QPI.

    6.	 Documentation for cutoff test work of last five shipments received at the Mint were not signed or dated.

We recommend that Mint management implement the following recommendations to correct the conditions
noted above:

Circulating Inventory

    1.	 Ensure that all inventory material is verified and counted.

    2.	 Perform a reconciliation of mutilated material to the CIBA.

    3.	 Develop training related to the proper recording of inventory from the count sheets into the subsidiary
        ledger in Oracle.

    4.	 Establish a policy and procedure that requires the timely sign-off and dating of count sheets.

    5.	 Develop training related to the proper recording of inventory movements in Oracle so that the QPI
        reconciliation is performed in the required time allotted.

    6.	 Prepare before the QPI by acquiring the proper documentation for cutoff test work with shipments
        properly dated and signed.


                                                        5

                                                                                                   Appendix A

                                       THE UNITED STATES MINT
                                Fiscal Year 2007 Management Letter Comments


A-3 Controls over Quarterly Physical Inventory Procedures at Denver Should be Strengthened

During our inventory observations, we noted the following:

Numismatic Physical Inventory

    1.	 Inventory testcounts were not “blind” counts, the total amount of inventory on-hand was listed on the
        count sheet.

    2.	 The initial Numismatic inventory count scheduled for 9/17/07 was performed; however, the inventory
        test counts could not be validated as there was no plan on how to count the inventory that was still in
        production. Therefore, the count was reperformed on 9/18/07 and the counts were able to be validated
        with production shut down.

    3.	 A pre-inventory reconciliation of the CIBA subsidiary ledger to the Oracle general ledger was unable to
        be performed in accordance with Mint policies and procedures.

Circulating Inventory

    1.	 The physical inventory count was performed by the manufacturing personnel who work with the
        inventory daily. Independent Mint personnel (typically personnel from Accounting) were not in
        attendance to observe all the counts performed and corroborate the results of the QPI. In addition, the
        weighing of WIP and condemned tanks were conducted by plant floor employees only, a third party is to
        be in attendance to verify this count.

    2.	 The review and approval of the count sheets was not performed in a timely fashion. Specifically on
        WIP count sheets, we noted that all of the count sheets were signed; however, they were not dated, so
        we were unable to verify when they were approved.

    3.	 A pre and post-inventory reconciliation of the CIBA subsidiary ledger to the Oracle general ledger was
        not performed in accordance with Mint policies and procedures.

    4.	 After the inventory was counted and/or weighed, various inventory items were not cordoned off or
        locked with a numbered seal. As a result, it was difficult to track and monitor which items had been
        counted.

    5.	 The Mint was unable to locate two tanks of Quarter WIP that was sealed on July 5, 2007. The seal was
        then broken and the tanks were put into production. The seal number was never recorded and
        documentation does not support the tanks removal from WIP into Finished Goods.

    6.	 There was one tank of webbing that was not counted during the QPI.

    7.	 The Mint count team counted an extra tank in condemned that was not on the count sheets.

    8.	 The Mint counted two tanks of condemned inventory, which were still classified as WIP in Oracle
        because the production team had not notified the manufacturing team to move them from WIP to
        Condemned in Oracle. This resulted in overstating the amount of WIP in Oracle.


                                                      6

                                                                                                     Appendix A

                                        THE UNITED STATES MINT
                                Fiscal Year 2007 Management Letter Comments


    9.	 There were ten 50 cent coils located at the warehouse that did not have a count sheet. The Mint stated
        that a count sheet was not prepared as the coils were received from Philadelphia on 2/28/07 and entered
        into Oracle on 4/3/07, based on weights submitted received with the shipment. Further review by the
        Denver Mint indicated that the weight received from Philadelphia was incorrect and they adjusted the
        inventory value on 8/15/07.

We recommend that Mint management implement the following recommendations to correct the conditions
noted above:

Numismatic Physical Inventory

    1.	 Develop policy and procedures that require the inventory quantities from the inventory taker’s count
        sheets to be blank to ensure the inventory counts are “blind” counts.

    2.	 The person in-charge of the inventory should plan and execute the inventory in accordance with Mint
        policy, which includes working with all parties involved in the inventory: production, manufacturing,
        and accounting.

    3.	 Develop a process for performing a pre-inventory CIBA subsidiary ledger to Oracle general ledger
        reconciliation.

Circulating Inventory

    1.	 Ensure that independent Mint personnel participate in the inventory observation.

    2.	 Develop clear inventory instructions and conduct training session on the proper procedures that should
        be performed during a QPI.

    3.	 Establish a policy and procedure that requires the timely sign-off and dating of count sheets.

    4.	 Develop a process for performing a pre and post-inventory CIBA subsidiary ledger to Oracle general
        ledger reconciliation.

    5.	 Develop a clear and consistent system for marking inventory items counted to ensure that the QPI count
        is complete, and that they have control over inventory movement during the QPI count. Management
        should consider the use of rope/tape and grip locks to seal off all tanks that have been counted.

    6.	 Develop training related to the proper recording of inventory movements in Oracle and on the count
        sheets for the production, manufacturing, and accounting sections.

    7.	 Establish a policy and procedure related to partial shipping and receipting of inventory between Mint
        facilities, including the certification of the inventory weights.

A-4 Physical Inventory Procedures at West Point Should be Strengthened

During our inventory observation testwork at the West Point Mint facility, we noted the following:



                                                        7

                                                                                                       Appendix A

                                        THE UNITED STATES MINT
                                Fiscal Year 2007 Management Letter Comments


    1.	 The Mint uses an outdated sampling methodology that is not part of the inventory SOP. A statistician
        developed a sampling methodology for the Mint during May 2001 to select a sample of items for
        counting during the API. However, the methodology has not been subsequently reviewed or updated to
        ensure the previous criteria are still applicable and are sufficient to provide adequate coverage of the
        total inventory on hand as of the count date.

    2.	 The Mint has not updated their SOP to reflect the API inventory procedures to include the use of
        statistical sampling.

We recommend that Mint management implement the following recommendations to correct the conditions
noted above:

    1.	 Update the sampling methodology on an annual basis to take into account the inventory on hand at the
        date of the count to ensure that the samples selected for the physical inventory are adequate.

    2. Include the use of statistical sampling in the API policies and procedures.

Asset Management

B-1 Controls Over Asset Retirements Should be Strengthened

During our Asset Management test work we noted that for 2 of 11 asset retirements from the interim sample and
8 of 13 asset retirements from the final sample, the Mint did not complete the Excess Property report.

We recommend that Mint establish and implement policies and procedures for the retirement of assets to ensure
that Excess Property forms are properly completed, filed and are available for examination for a reasonable time
period after the retirement transaction.

B-2 Controls Over Property, Plant and Equipment Should be Strengthened

During our property, plant and equipment testwork, we noted that:

    1.	 From the property, plant and equipment items selected for testing, 4 out of 36 did not have a property
        identification number attached. During our review, once this issue was discovered, property
        identification numbers were created and attached to the property items.

    2.	 The Mint was unable to timely locate a property, plant and equipment item selected for review. The
        item was identified after significant efforts to locate it.

    3.	 KPMG noted several property items were physically received by the field site; however, these items
        were not included in the field site’s general ledger.

We recommend that the Mint:

    1.	 Ensure that all property, plant and equipment have a property identification number and the property
        identification number should be assigned timely as the property is received.

    2.	 Assign a location identifier to all property items to ensure that these items can be tracked properly.


                                                         8

                                                                                                      Appendix A

                                         THE UNITED STATES MINT
                                 Fiscal Year 2007 Management Letter Comments


      3.	 Establish and implement a reconciliation process between property, plant and equipment received at the
          field site and assets recorded in the general ledger.

B-3    Controls Over Property, Plant and Equipment Inventory Should be Strengthened

The Mint performed an extensive physical inventory of property, plant and equipment at all facilities during
fiscal year 2007. Based on the results of the physical inventory, we noted that improvement is still required to
ensure that all property is adequately safeguarded and properly accounted for. Specifically, we noted the
following:

      1.	 38 accountable property items physically inspected were not included in the Asset Management Module
          of Oracle until after the physical inventory was completed.

      2.	 The Mint was unable to physically locate 158 accountable property items.

      3.	 We noted there is inconsistency, between the facilities, in the documentation as well as the support that
          is needed to support the results of the inventory.

We recommend that the Mint:

      1.	 Ensure that accountable property items are properly and timely included in the Asset Management
          Module of Oracle.

      2.	 Implement adequate security and physical control procedures to ensure that all assets are adequately
          safeguarded and properly accounted for.

      3.	 Review and revise the existing polices and procedures to standardize the procedures performed during
          the physical inventory. This should include specific details on how to perform the inventory, what
          reports are required to support the inventory, and what support is expected in communicating the results
          of the inventory to the Property Management Group at Headquarters. Further, the procedures should
          require the Property Management Group at Headquarters to perform inventory control monitoring
          procedures at each Mint facility.

Revenue Generation and Collection

C-1 Controls Over the Preparation of Shipping Documents Should be Strengthened

During our walkthroughs and control testwork, we noted that the Mint prepares Government Bill of Lading
(GBL) documentation for all shipments prior to the shipment date. As reported in the fiscal year 2006
Management Letter, the Mint prepared GBLs are pre-populated using the shipment date scheduled with the third
party carrier.

We recommend that the Mint leave the shipment date on GBLs blank and require truckers from third party
carrier sign and date the GBLs when the inventory is loaded on the truck and physically leaves the Mint’s
loading dock.

As of April 1, 2007 we noted the Mint had stopped pre-populating the GBLs and requiring truckers from the
third party carrier to sign and date the GBLs.

                                                         9

                                                                                                    Appendix A

                                        THE UNITED STATES MINT
                                Fiscal Year 2007 Management Letter Comments


The Mint has corrected the findings noted above as of fiscal year-end.

C-2     Controls Over the Sign-off of Shipping Documents Should be Strengthened

For the revenue control testwork performed, we noted that the Mint prepares GBL documentation for all
shipments prior to the shipment date. KPMG noted that Mint updated their process for preparing the GBL during
the current fiscal year and it no longer contains a pre-populated shipping date where the third party carrier is
supposed to sign and date it. During our testwork we noted 4 out of 15 GBL’s were not signed and /or dated by
the third party carrier. During our cut off testwork for year end we noted that 1 out of 20 GBLs was not dated by
the third party carrier.

We recommend that the Mint require the third party carrier to date the GBLs when the inventory is loaded on the
truck and physically leaves the Mint’s loading dock.

Human Resource Management

D-1 Controls Should be Developed for Monitoring Payroll Processed by Service Providers

The Mint outsourced certain payroll functions to the Bureau of the Public Debt’s Administrative Resources
Center (ARC) during fiscal year 2006. ARC submits the Mint’s payroll information to the National Finance
Centre (NFC), who processes the payroll. However, as noted in fiscal year 2006, the Mint has not updated the
SOP to address the ARC’s involvement in the human resources function. We noted that no user controls have
been established to verify that the payroll and human resources information is properly processed by NFC and
ARC at the employee level.

We recommend that the Mint implement adequate controls over the human resources and payroll process to
ensure that payroll processed by NFC and ARC are complete and accurate. Further, an enhanced SOP should be
developed to provide a clear audit trail of the processes and controls that are performed at ARC and the Mint.

As of the end of May, KPMG noted that the Mint implemented a new policy and procedure to review changes
made to the human resources and payroll information. KPMG reviewed the design of the new process in June,
noting it was designed effectively. The new policy requires the Mint to review all ARC actions for each pay
period. At the end of the pay period, the Mint will print a report identifying “applied” and “suspended” actions.
All “suspended” actions will be investigated until they are resolved and changed to “applied” status. These
reports will be signed off by a reviewer and maintained on file.

As discussed above, the Mint has corrected the findings noted above as of fiscal year-end.

D-2 Controls over Reconciliation Reviews Should be Strengthened

During our reconciliation test work, we could not verify the review and approval of reconciliations performed
from the sub ledger to the general ledger.

We recommended that the Mint enforce the practice of signing-off the reconciliations on a timely basis in order
to adequately document that a formal review and approval of the reconciliations is being made.

The Mint has corrected the findings noted above as of fiscal year-end.


                                                       10 

                                                                                                   Appendix A

                                       THE UNITED STATES MINT
                               Fiscal Year 2007 Management Letter Comments


Financial Reporting

E-1 Standard Operating Procedures Should be Implemented for Heritage Assets

During fiscal year 2006, we noted that the Mint adopted the provisions of Statement of Federal Financial
Accounting Standards (SFFAS) #29, Heritage Asset and Stewardship Land. The Mint removed museum quality
pieces from operating inventory at the West Point Facility and created a new heritage asset footnote as required
by SFFAS # 29.

The Mint has completed a draft policy and procedure for the accounting treatment of heritage assets; however, it
has not been finalized.

We recommend that the Mint finalize and issue the Heritage Assets policy and procedure. The policy and
procedure should require the implementation of tracking procedures to ensure that the coins as well as the
property, plant, and equipment items are properly presented. Tracking, at a minimum, should include a
description of major categories, physical unit information for the end of the reporting period, physical units
added and withdrawn during the year, a description of the methods of acquisition and withdrawal, and condition
information.




                                                      11 

                                                                                                 Appendix B

                                      THE UNITED STATES MINT
                             Response to Management Letter Comments FY 2007


The United States Mint management generally concurs with the conditions reported and will review the noted
conditions and analyze the recommendations to develop corrective action plans to address the issues. While the
final resolution may not specifically follow the recommendation, we will, in consultation with our auditors,
ensure that the corrective action will resolve the reported concern.




                                                     12 

                                                                                            Appendix C

                                  THE UNITED STATES MINT
                          Status of Prior Year Management Letter Comments
                                 Fiscal Year 2007 Management Letter



        Fiscal Year 2006 Management Letter Comment                       Fiscal Year 2007 Status
Inventory Management
  A-1     Controls Over Tracking Die Steel Rods Should be Closed.
          Strengthened
  A-2     Physical Inventory Procedures at West Point Should Repeated: See fiscal year 2007 revised
          be Strengthened                                    comment at A-4.
          Security at Denver Warehouse Should be Closed.
  A-3
          Strengthened

  A-4     Improvements Needed to Monitor Slow-moving and Closed.
          Obsolete Inventory
  A-5     Procedures Should be Enhanced to Observe Physical Closed.
          Inventory at PFS Web
  A-6     Quarterly Physical Inventory Procedures Should be Partial repeat: See fiscal year 2007
          Strengthened                                      revised comment at A-2.
Asset Management
  B-1    Controls over Asset Retirements Should be         Repeated: See fiscal year 2007 revised
         Strengthened                                      comment at B-1.
         Policies and Procedures for Performing Impairment Closed.
  B-2
         Analysis Should be Reviewed
Revenue Generation and Collection
  C-1     Controls over Monitoring the MOA with USPS Closed.
          Should be Strengthened
          Controls over the Preparation of Shipping Documents Repeated: See fiscal year 2007 revised
  C-2
          Should be Strengthened                              comment at C-1.
 C-3   Improper Recognition of Consignment Sales               Closed.
Human Resource Management
  D-1     Controls Should be Developed for Monitoring Payroll Repeated: See fiscal year 2007 revised
          Processed by Service Providers                      comment at D-1.
Procurement
  E-1     Controls over Disbursements Should be Strengthened   Closed.
  E-2     Controls over Document Retention of Purchase Closed.
          Orders Should be Strengthened
  E-3     Accounts Payable Module Should be Enhanced to Closed.

                                                 13 

                                                                                              Appendix C

                                    THE UNITED STATES MINT
                          Status of Prior Year Management Letter Comments
                                 Fiscal Year 2007 Management Letter


        Fiscal Year 2006 Management Letter Comment                         Fiscal Year 2007 Status
          Automatically Calculate Prompt Pay Penalty Interest
Manufacturing
  F-1     Management Review of Variances           Should    be Closed.
          Formalized and Strengthened
  F-2     Controls Over Document Retention for Standard Closed.
          Costs Should be Strengthened
Information Technology
  G-1     Improvements Needed in Specialized Training for Closed.
          Employees
  G-2     Improvements Needed in Audit Reviews of the Closed.
          Windows Environment
  G-3     Improvements     Needed    in   Network        Account Closed.
          Management
  G-4     Improvements Needed in Data Security Controls          Closed.
  G-5     Improvements Needed in Internal System Device Closed.
          Controls
Financial Reporting
  H-1     Standard   Operating     Procedures    Should      be Repeated: See fiscal year 2007 revised
          Implemented for Heritage Assets                       comment at E-1.




                                                  14 

